<html>
<title> - HEARING TO EXAMINE S.747, DIESEL EMISSIONS REDUCTION ACT OF 2019</title>
<body><pre>[Senate Hearing 116-10]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-10

                    HEARING TO EXAMINE S.747, DIESEL
                    EMISSIONS REDUCTION ACT OF 2019

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
               
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-161 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="32425d72514741465a575e421c515d5f1c">[email&#160;protected]</a>                       
               
              
            
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, -
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 13, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     7
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     8

                               WITNESSES

Krapf, Dale N., Chairman, Krapf Group Incorporated...............     8
    Prepared statement...........................................    11
    Responses to additional questions from:
        Senator Barrasso.........................................    15
        Senator Carper...........................................    17
Nagle, Kurt J., President, American Association Of Port 
  Authorities....................................................    20
    Prepared statement...........................................    23
    Responses to additional questions from:
        Senator Barrasso.........................................    42
        Senator Carper...........................................    44
Johnson, Timothy V., Consultant, Corning Incorporated, Former 
  Director Of Emerging Regulations and Technologies at Corning 
  Environmental Technologies.....................................    47
    Prepared statement...........................................    49
    Responses to additional questions from Senator Carper........    51

 
    HEARING TO EXAMINE S.747, DIESEL EMISSIONS REDUCTION ACT OF 2019

                              ----------                              


                       WEDNESDAY, MARCH 13, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Braun, Rounds, 
Ernst, Cardin, Whitehouse, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are here to discuss the Diesel Emissions Reduction 
Act of 2019, which would extend the program.
    Since Congress first created the program in 2005, the 
program has enjoyed broad bipartisan support. We owe it to our 
dear friend, the late Senator George Voinovich, from Ohio, and 
Ranking Member Carper, for working together across the aisle to 
push for the creation of this program.
    The legislation we are discussing today would reauthorize 
the Diesel Emissions Reduction Act through Fiscal Year 2024, so 
I want to thank the Ranking Member and his entire staff for 
their leadership on this legislation over the years. I am 
pleased to chair the second bipartisan legislative hearing on 
reducing emissions to address climate change in this Committee 
in the last 2 weeks.
    Like the USEIT Act, the focus of our last hearing, this 
legislation supports innovation-led solutions to environmental 
protection. Diesel engine emissions of particulate matter and 
nitrogen oxides are well known. We have all driven behind an 
older bus or tractor and experienced the exhaust. This program 
has gone a long way to reducing those emissions.
    States, localities, and private companies can use funds 
from this program to replace or upgrade diesel engines. These 
projects could reduce emissions or those pollutants by more 
than 90 percent. It is astonishing, more than 90 percent.
    From 2008 to 2016, these funded projects have reduced 
emissions of nitrogen oxides by more than 472,000 tons, and the 
program has reduced particulate matter by over 15,000 tons. 
These are big numbers. These reductions help improve the air 
quality for local communities.
    The State of Wyoming has used these funds over the last few 
years to replace old diesel school buses. In fact, school buses 
have been a major focus of the funding of this project in this 
legislation. One of our witnesses today, Mr. Dale Krapf, has 
brought a state-of-the-art school bus to the EPA headquarters 
just last year. I understand you have been working with Senator 
Inhofe for, you said, several decades.
    Senator Inhofe. That is right.
    Senator Barrasso. Go back a long time.
    He also was invited by then Acting Administration Wheeler 
for an event during Children's Health Month. So I am pleased 
Mr. Krapf is able to join us today to talk about the positive 
impact that this legislation is having on children's health in 
Wyoming and all across the Country.
    One of the other benefits of this program is it reduces 
emissions of greenhouse gases. Upgrading diesel engines reduces 
greenhouse gas emissions on both black carbon and carbon 
dioxide. Black carbon has a global warming potential that is 
thousands of times higher than carbon dioxide over a 20-year 
timeframe. Through this program, we have reduced black carbon 
emissions by more than 11,000 tons and carbon dioxide by more 
than 5 million tons.
    This program is going after the gases that contribute to 
climate change. I emphasize this point because of a false 
narrative out there that Republicans haven't put forth 
solutions to climate change. That is simply not true. This 
program is a great example of bipartisan policy that has 
reduced emissions now for over 10 years.
    Our USEIT Act is another. That bill would support the 
buildout of both carbon capture and direct air capture 
projects. Importantly, it would support the infrastructure we 
need to move carbon dioxide from where it is captured to where 
it can be used for commercial purposes. That might mean 
injecting it into oil wells or using it in making building 
materials or feeding it into greenhouses.
    In addition to those pending bills, I would also remind my 
colleagues abut the FUTURE Act. The Clean Air Task Force called 
that bill, which passed a year ago, one of the most important 
bills for reducing global warming pollution in the last two 
decades. I would also note the successful bipartisan work this 
Committee has done to promote advanced nuclear energy.
    I and many of my colleagues on this Committee support these 
initiatives and this Committee will continue to lead on this 
important issue. When we work together, we can solve and we can 
show that we can promote American leadership, grow our economy, 
and lower our emissions.
    I would now like to turn to Ranking Member Carper for his 
opening comments.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. I have been looking 
forward to this day all year and am thrilled to be alive. It is 
a beautiful day outside, sunshine, blue skies, and we have a 
great bipartisan coalition supporting the legacy of George 
Voinovich, one of my all-time favorite Governors. We served as 
Governor together for 6 years and then here in the U.S. Senate, 
in this room, on this Committee.
    George's wife is still alive. I get to talk with Janet on 
her birthday every year; call her on her birthday in Cleveland. 
She sends her love.
    Some of you may recall George was not just a U.S. Senator 
from Ohio, he was not just a Governor from Ohio, he was not 
just lieutenant Governor of Ohio, he was not just mayor of 
Cleveland, a lot of people said he saved Cleveland, and he was, 
I think, county auditor before that. He did it all. And he 
served here sort of like the conscience of the Senate, and was 
just a great role model for all of us as Democrats and 
Republicans on how we can work together and get things done.
    One day he said to me, I forget what year it was, but I had 
been here a couple years as a Senator, I came in 2001, and he 
said to me, Tom, how would you like to be my lead Democrat on 
legislation that, as our Chairman has said, will actually 
reduce soot, reduce particulate matter, NOx, black carbon, and 
CO2? How would you like to be my lead Democrat? I said, I am 
not interested. Actually, I said I would be very interested.
    He laid out what it was and it was what turned out to be 
the Diesel Emission Reduction Act, where we actually have the 
ability to use a relatively modest amount of Federal money to 
leverage a whole lot of other money from State and local 
sources, from private sources, in order to reduce emissions in 
the air and using American technology that I think our folks 
from Corning may have actually developed in the beginning.
    So here we are, create American jobs, reduce harmful 
emissions, with a little bit of Federal money, leverage a whole 
lot of other money. I think for every dollar that we have in 
the Federal side we leverage about three dollars, as I recall, 
from other sources, public and non-public. My staff tells me 
that for every dollar we spend in Federal money we get about 
$13 worth of value in terms of health benefits and economic 
benefits.
    What is not to like about this legacy from George? I am 
thrilled to find a package that, with George's departure, Jim 
Inhofe stepped up. Actually, he was an original cosponsor of 
the bill too way back in the beginning, but Jim has been a 
great champion of this and we are grateful for his leadership 
on this, and his team and his staff.
    I just want to say to my staff a special thanks. To our 
witnesses, welcome.
    I have a statement I want to admit for the record, but as 
the Chairman says, this is another good example of how we can 
work together and get stuff done. We have been doing it through 
DERA for a number of years, but he mentioned the USEIT Act, 
which I think has great potential, and the FUTURE Act, which is 
another one that we worked on.
    There are a number of things that we are working on 
together. A lot of people say, oh, you never get anything done 
in Congress these days. Well, beneath the radar screen we 
actually do. It doesn't make news, but it is good news, and I 
am happy to celebrate the good work that has been going on and 
will hopefully continue to go on for some time to come.
    Thank you, Mr. Chairman. I would ask unanimous consent that 
my full statement be admitted to the record.
    Senator Barrasso. Without objection.
    [The prepared statement of Senator Carper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Senator Inhofe, would you like to----
    Senator Inhofe. Yes, I do. I do. And I would ask the same 
unanimous consent.
    Senator Barrasso. Without objection.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Everything in my printed statement has been 
said, but I will use this time--I was talking to Gabe back 
here. Hold your hand up, Gabe.
    We go all the way back to when I was on this Committee in 
the House. Now, we are talking about 30 years ago. And John 
Paul Hammerschmidt, I just mentioned to Senator Barrasso and he 
had never heard of him. Of course, that is the way it is with 
most of the people, Gabe.
    Anyway, the Chairman did talk about all the things we are 
doing right now that are really good, and so did the Vice 
Chairman. He mentioned the USEIT Act. I think the recognition 
that fossil fuels are going to be there and are going to be a 
part of our lives for at least the rest of my life, maybe not 
yours, but we recognize that.
    But I am going to take advantage of this and say to my 
friend, Mr. Nagle, to remind people of something nobody knows 
about, it is the best kept secret in America today, and that is 
that my State of Oklahoma is navigable. We go all the way from 
coast to coast. We are out there.
    I remember a guy came to me, he was the head of the World 
War II Veterans Association back when I was in the State 
legislature, and he said to me, he said nobody knows that we 
are navigable in Oklahoma; I have a way to do this and we will 
pay for it. He said, we'll go ahead and we are going to have 
and put together, if you find a submarine for us, we are going 
to bring a submarine all the way up the river up to Muskogee, 
Oklahoma. And I thought, what a great idea.
    I found the USS Batfish in Orange, Texas. It fit the thing 
just perfectly. So we went down and we started up there. We had 
to artificially bring it down to get under bridges and then 
flow it up. We got it all the way up there. And all the time 
this is taking place, because I used to be controversial and 
all my adversaries were saying we're going to sink Inhofe with 
his submarine. We got it all the way up there and it is still 
proudly sitting in Muskogee, Oklahoma, a submarine, coming all 
the way from Orange, Texas to Oklahoma.
    So, anyway, we have that interest, as Kurt Nagle is fully 
familiar with, and we want to join everyone else in this cause 
that we have believed in for a long period of time, so it is 
nice to be with my friends. It shows that when we put our heads 
together, we can get things done.
    Senator Barrasso. Let the record reflect that the Senator 
from Oklahoma used to be controversial, but has mellowed.
    [Laughter.]
    Senator Barrasso. Senator Whitehouse, thank you for working 
on this legislation.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. I cannot match our 
Ranking Member's durability on this issue over many, many 
years, but I am very pleased to be a supporter of this 
legislation and one of its bipartisan cosponsors.
    If you look up close at the belching fumes that come out of 
these older engines and the particulates and the people 
coughing and waving away the exhaust, you see that this type of 
legislation can have a real effect in communities, on streets, 
and in neighborhoods. And if you dial up a couple thousand feet 
into the atmosphere, you see that the black carbon problem that 
it ameliorates has a big effect, particularly in northern 
States where it falls on snow and it changes the albedo, the 
reflectiveness of the snow; and that is one of the feedback 
loops that is dangerous with respect to climate change. I think 
that is one of the reasons that Senator Collins of Maine has 
supported legislation regarding black carbon.
    So both up close and from on high this is a piece of 
legislation that has very significant and positive effects, and 
I am proud to be a part of it. I am equally proud to be one of 
the supporters of the USEIT bill and the FUTURE Act and the 
nuclear measures that the Chairman was kind enough to 
recognize.
    I would just offer one hesitation, which is that if you add 
up the effects of this bill, the USEIT Act, the FUTURE bill, 
and our nuclear reforms, I don't think they get us anywhere 
near the climate goals that we need to reach. So as much as I 
enjoy and even treasure our bipartisan work on these issues, I 
see it as a bipartisanship pilot light burning in the hopes 
that soon we will be able to do something bipartisan that 
actually addresses the problem in the way that we need.
    So, much appreciation to you, Chairman, for your 
cooperative spirit on this and others, and much appreciation 
also to the newly non-controversial Senator Inhofe for his 
leadership in this area. And to my Ranking Member, much 
gratitude for his long support.
    Senator Barrasso. Well, thank you.
    We will now hear from our witnesses. I am pleased to 
introduce our three witnesses to the panel today: Mr. Dale 
Krapf, who is Chairman of Krapf Group Incorporated. Thank you 
for being here. Mr. Kurt Nagle, who is President of the 
American Association of Port Authorities; and Dr. Timothy 
Johnson, Consultant to Corning Inc.
    I want to remind the witnesses that your full written 
testimony will be part of our official hearing, so if you could 
please keep your statements to 5 minutes so that we will have 
some time for questions. We all look forward to hearing your 
testimony.
    Mr. Krapf.

             STATEMENT OF DALE N. KRAPF, CHAIRMAN, 
                    KRAPF GROUP INCORPORATED

    Mr. Krapf. Good morning, Chairman Barrasso, Ranking Member 
Carper, Senator Inhofe, and members of the Committee. My name 
is Dale Krapf, and I am Chairman of the Board of the Krapf 
School Bus Company, headquartered in southeastern Pennsylvania, 
a family owned and operated passenger transportation business 
established in 1942. We are now the largest privately held 
school bus contractor in the Nation, operating in Pennsylvania, 
New York, New Jersey, Delaware, and Virginia.
    I am pleased to support the reauthorization of the Diesel 
Emissions Reduction Act, or DERA, one of the most effective 
clean air tools in improving air quality concerns at the local 
level. I also want to express my appreciation to Senators 
Carper and Inhofe, original cosponsors of the 2010 and the 
current reauthorization bill.
    I am here today on behalf of the National School 
Transportation Association, the trade association for private 
school bus contractors around the Country. Private companies 
provide over one-third of the Nation's public school bus 
service. I was proud to serve as president of NSTA from 2003 to 
2005, and today my son Blake serves in that same role. Another 
son, Brad, also serves on the NSTA Board.
    My family business has been successful not just because we 
have followed sound business practices, but because our focus 
has always been on our communities and, most importantly, our 
precious cargo, the children we transport to and from school 
every day. We have a saying in our industry, that we bleed 
yellow, which signifies our commitment to the safety of the 
children we transport.
    School transportation is a uniquely American industry and 
is part of our Country's commitment to free public education. 
Each day, nearly 500,000 school buses transport over 26 million 
children to and from school, more than inner city and intercity 
bus transportation, rail and aviation combined.
    School buses help ease congestion, help save energy, and 
reduce pollution by taking an average of 36 cars off the road 
for each trip. Taken together, this represents 17 million fewer 
cars and a savings of 20 million tons of CO2 each year. 
Further, the technology of today's school bus is tremendously 
improving, incorporating not only clean engine and emission 
reduction technology, but also the most advanced safety 
features, all designed to protect the children on and around 
the bus and the air they breathe.
    According to DOT statistics, the school bus is the safest 
form of transportation, bar none. Our commitment to safety and 
the children's health is not only focused on preventing 
accidents, but also protecting the overall health of the kids 
on the bus or waiting for the bus, at the bus stop or at the 
school. That is why we have been an early and strong and 
consistent supporter of the DERA program, and even before that 
the Clean School Bus program. Over the last decade, NSTA, 
through our D.C. representatives, has helped lead an informal 
coalition of not just school bus interests, but also 
representatives of other sectors who support the 
reauthorization of the continued funding for the DERA program.
    Funding can be used for projects to purchase newer, cleaner 
vehicles or equipment, repower older equipment, or retrofit 
equipment with the latest after treatment technologies. The 
program is technology agnostic, meaning that all types of clean 
vehicles and equipment are eligible, including diesel, propane 
or natural gas, electric or hybrid, and it supports vehicles 
and equipment in all sectors, from tug boats to transit buses, 
locomotives to school buses.
    Seventy percent of all the funds go to EPA, with 30 percent 
going directly to support State programs. EPA administers 
grants through the regions on a purely competitive basis, with 
a goal of funding the projects that produce the highest 
benefits. We are proud of the progress that has been made, and 
especially the school bus sector has probably been the single 
largest sector to benefit from the program since the program 
was established.
    Communities around the Country benefit by having new or 
retrofitted buses to take children to and from school. We have 
worked with EPA to help pioneer access to grant funds to both 
public and private entities using the authority in the Act to 
fund projects through nonprofit entities working to improve air 
quality and transportation safety.
    However, because the grants can be a challenge for a small 
rural school district or their transportation contractor, we 
pushed for language in the last reauthorization bill to help 
streamline the process through the use of rebates as a way to 
get the funds to where they are needed quickly and efficiently.
    The EPA School Bus Rebate program allows local school 
districts and companies under contracts to those districts 
equal access to funding for taking older buses off the road and 
replacing them with newer buses that often can emit at least 95 
percent less pollution than the ones being removed. I am 
delighted that Krapf School Bus received one of those rebates 
in 2017.
    Some have questioned why a program that was originally 
authorized in 2005 is still needed. The answer is simple: it 
still works and it produces benefits well in excess of cost. 
Diesel vehicles are the workhorses of our economy and they last 
a long time. In our school bus fleet in Pennsylvania, we work 
hard to get newer vehicles into service, but we also helped 
take over a county system in Virginia where the buses were 
considerably older. Some States operate systems where the 
average age of the bus may be more than 15 years old. That 
means there are many buses in those States older than 15 years 
as there are newer buses. DERA helps communities get those 
older buses off the road, cleaning the air in the process and 
also improving transportation safety.
    We believe the program is still extremely valuable and 
needed, and we strongly support its reauthorization as provided 
in the legislation introduced earlier this week by Senators 
Carper, Inhofe, Barrasso, and other members of the Committee.
    Thank you for the opportunity to be here today and to speak 
in support of the bill before the Committee. I would be happy 
to answer any questions. Thank you.
    [The prepared statement of Mr. Krapf follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. Mr. Chairman, thank you. I just wanted 
to interject a word of welcome to Mr. Nagle and thank him for 
the American Association of Port Authorities' work on oceans 
issues and dealing with sea level rise and the ocean planning 
near our ports. It is so important. I think the AAPA has taken 
a real leadership role and has been a very constructive 
partner, and I just wanted to take the opportunity to express 
my appreciation as you made your comments and to welcome you to 
the Committee.
    Mr. Nagle. Thank you, Senator Whitehouse. Appreciate that 
and we certainly value that partnership.
    Senator Barrasso. Please proceed.
    Senator Carper. Mr. Nagle, why do people call you Nagle? I 
have heard you pronounce your name Nogle.
    Mr. Nagle. Well, I was born in Pennsylvania, in the 
Pennsylvania Dutch area, so we have stuck with the German 
pronunciation of Nogle. But most people say Nagle and I am fine 
with either one.
    Senator Carper. All right.
    Senator Whitehouse. So I don't owe you an apology? Because 
if I do, you have one.
    Senator Carper. Nagle or Nogle, we welcome you.

STATEMENT OF KURT J. NAGLE, PRESIDENT, AMERICAN ASSOCIATION OF 
                        PORT AUTHORITIES

    Mr. Nagle. Chairman Barrasso, Ranking Member Carper, 
Senator Cardin and Senator Whitehouse, the American Association 
of Port Authorities strongly supports reauthorization of EPA's 
Diesel Emissions Reduction Act program.
    Over the last 10 years, this funding has been key to 
incentivizing and expanding port environmental programs to 
improve air quality impacted by port operations.
    As you know, ports are vital gateways to the global 
marketplace for American farmers, manufacturers, and consumers, 
and serve as critical infrastructure for the U.S. military. 
Port cargo activity supports over 23 million American jobs, 
accounts for over a quarter of our national economy, and, 
importantly, generates over $320 billion a year in local, 
State, and Federal tax revenues.
    As public agencies, AAPA member port authorities are 
committed to delivering prosperity through environmentally 
sustainable business practices. Ports are multi-modal 
facilities served by vessels, trucks, and rail and use cargo-
handling equipment, many of which use diesel fuel. Reducing air 
emissions continues to be a high priority for ports, and 
partnerships like DERA provide great value.
    AAPA was an early supporter of the creation of the DERA 
program and has advocated for robust funding over the years. 
Additionally, AAPA supported the adoption of the North American 
Emissions Control Area, which has significantly reduced air 
emissions from ocean-going ships. DERA helps address other 
contributors such as trucks, locomotives, cargo-handling 
equipment, and other marine vessels.
    According to EPA, between 2008 and 2018, a total of 150 
clean diesel grants have been awarded to port-specific projects 
totaling $148 million. An additional $64 million was awarded 
through DERA to multisector projects that involve ports. Here 
are just a few examples:
    Just last month, EPA awarded a DERA grant of $400,000 to 
the Alabama State Port Authority to replace a 1982 locomotive 
with a Tier IV locomotive engine. When completed, the port will 
have converted half of its locomotive fleet from Tier 0 to Tier 
IV, yielding significant reductions in the port's emissions 
profile. Other ports have used DERA funds for cleaner 
locomotives as well.
    DERA has been especially helpful in supporting ports' clean 
truck programs. This includes clean truck programs in New York-
New Jersey, the Port of Baltimore, Mass Port, Houston, Seattle, 
and Georgia. These programs help truckers buy newer, clean 
drayage trucks that not only reduce emissions, but also are 
more fuel efficient.
    The Port Authority of New York-New Jersey has a very 
successful clean truck program that has been expanded due to 
DERA grants. In February of this year, EPA announced it has 
awarded $2 million to the Port Authority of New York-New Jersey 
to replace up to 80 model year 2006 and older short-haul trucks 
that serve as Port Authority facilities with cleaner, newer 
model year trucks.
    The Maryland Port Administration has utilized DERA grants 
to exchange 181 port drayage trucks, 110 pieces of cargo-
handling equipment, 4 marine diesel engines, and 6 switcher 
locomotives. Between 2012 and 2016, due to the availability of 
funding programs like DERA, the Port of Baltimore was able to 
reduce emissions by 19 percent, while cargo throughput 
increased by 10 percent.
    A number of ports have also used DERA grants for supporting 
repowering or replacing cargo-handling equipment. Mass Port, 
for example, received a grant to retrofit five rubber-tired-
gantry cranes with new Tier IV engines, resulting in sizable 
emissions reductions.
    The Georgia Ports Authority used two DERA grants to assist 
in the repowering of 20 rubber-tired-gantry cranes with 
variable frequency inverters. GPA was on the forefront of 
changing RTG technology with the variable inverters that 
provide power when needed, instead of having to run at full 
power constantly. This change resulted in immediately cutting 
fuel use by 33 percent and the associated emissions.
    Other ports have used DERA grants for marine vessels, 
including Cleveland, Portland, New York-New Jersey, Puget 
Sound, Long Beach, and Connecticut. For example, the Port of 
Portland helped leverage a DERA grant to repower the Dredge 
Oregon that resulted in diesel particulates reduction of 80 
percent and a reduction of greenhouse gases by 25 percent.
    The Port of Virginia has also seen significant benefits 
from DERA grants related to dredge repowering, as well as a 
hybrid shuttle carrier project that is now underway.
    In summary, DERA continues to be an incredibly successful 
program in helping reduce emissions in and around America's 
ports. We appreciate the Committee's leadership on 
reauthorization of this important program and we strongly 
support its reauthorization.
    Thank you.
    [The prepared statement of Mr. Nagle follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you so much for your 
testimony, for being here with us today.
    Mr. Johnson.

     STATEMENT OF TIMOTHY V. JOHNSON, CONSULTANT, CORNING 
   INCORPORATED, FORMER DIRECTOR OF EMERGING REGULATIONS AND 
       TECHNOLOGIES AT CORNING ENVIRONMENTAL TECHNOLOGIES

    Mr. Johnson. Thank you, Senator Barrasso and Senator 
Carper, Senator Van Hollen, for the invitation to testify today 
in favor of the Diesel Emissions Reduction Act.
    I have worked for Corning for about 30 years, spending 20 
of those years tracking emerging engine efficiency and 
emissions. About 7 years ago, after years of investigation, the 
International Agency for Research on Cancer concluded that 
diesel exhaust is a known human carcinogen, their most toxic 
designation. We, as a society, should desire that all diesel 
exhaust emissions be reduced as much as is practical.
    However, there are some problems in doing this with in-use 
engines. Namely, the owner of the engine bought a legal engine 
and, despite that, this engine will last 20 years; it will 
operate with none of the advanced emission control equipment 
being installed on new engines today; and the added cost of 
upgrading isn't contemplated when the engine was purchased. One 
pre-2007 engine emits the same particulate pollution as about 
20 of today's clean engines.
    In 2005, DERA started as a very effective public investment 
to clean up these in-use emissions. By providing funding, 
motivated owners can cleanup these dirty engines without 
damaging their business plans, and the engines are motivated as 
DERA is oversubscribed. Only about 1 in 35 applicants gets a 
rebate under DERA, and only 1 in 7 gets a grant. For each 
Federal dollar invested in the program, others invest $3 more. 
EPA estimates that this one Federal dollar delivers $5 to $21 
in societal health benefits, and the technology is available.
    There are upwards of 15 different verified technologies 
that have been employed, including clean fuels like advanced 
biodiesel, aerodynamic-resistant reductions for trucks, and the 
most effective of all, diesel exhaust particulate filters that 
reduce the fine particulate emission levels to lower than in 
city air. Trucks with diesel particulate filters clean the air; 
the more you drive them, the cleaner the air gets.
    As such, the DERA investment is an amazing success. It 
provides seed money to clean up diesel exhaust using a wide 
variety of verified technology without breaking the owner's 
wallet, and it delivers up to $21 returned to society for every 
Federal dollar invested. The Federal Government has invested an 
average of $40 million a year in DERA in the last 7 years. 
Obviously, this is a good, practical, and popular way for the 
Federal Government to invest in the infrastructure and health 
of the Nation, and the program ought to be funded with an 
increase.
    I want to briefly shift my discussion to updating the 
Committee on the latest trends in diesel nitrogen oxide 
emission reductions.
    The NOx emissions from diesel engines pose a number of 
health concerns. Once in the atmosphere, they react with other 
compounds to form ozone, the major component in smog. Ozone is 
a reactive and corrosive gas that contributes to many 
respiratory problems. Ozone, in particular, is harmful to 
children and the elderly. To our collective credit, 85 percent 
of the regions in the U.S. are meeting the EPA's new maximum 
allowable 8-hour ambient ozone standard of 74 parts per 
billion. However, there are still 51 areas in the United 
States, and the District of Columbia, not meeting the new 
standard.
    California and the EPA are developing truck tailpipe 
emission standards that will drop NOx emissions by another 90 
percent. This time around, the Government has the engine 
industry support for cost-effective and practical solutions. 
The NOx emissions that are mainly targeted are those generated 
in urban driving, when the exhaust catalyst is not hot enough 
to fully function.
    Eliminating these emissions is not an easy task, but the 
technology is becoming available and will have a minimum impact 
on the operation of the vehicle, and it will be used with 
advanced biodiesel, perhaps up to 20 percent formulation, for 
greenhouse gas reduction. These new engines will be essentially 
non-polluting, and in many cases the NOx level is lower than in 
ambient air. With NOx emissions this low, one European truck 
will pollute as much as about 20 of these clean U.S. trucks, so 
Europe, China, and the rest of the world will ultimately move 
in this direction, utilizing U.S.-borne technology.
    As battery electric trucks and cars enter the market, the 
emissions benchmark for internal combustion engines will get 
tighter. The Federal Government can have a major role in 
helping current diesel owners cleanup their engines and improve 
their image, and in making sure that new diesel engines are as 
clean as practical.
    It is amazing how far we have come under government 
initiatives and private industry innovation to make both legacy 
and new diesel engines virtually non-polluting and as clean as 
practical.
    Thank you very much.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Can you repeat that? Government 
initiative and private innovation, did you say?
    Mr. Johnson. Yes.
    Senator Barrasso. Thank you. Terrific.
    Mr. Krapf, over the last couple of years, the State of 
Wyoming has leveraged about $900,000 in Federal DERA funds to 
purchase new buses across the State. The city of Cheyenne Parks 
and Recreation replaced two buses used for student 
transportation. We have school districts in Big Horn County, 
Campbell County, Lincoln County, Park County, Sheridan County, 
Sweetwater County, Uinta County have all used Federal DERA 
funding to order 43 replacement school buses.
    Can you just talk a little bit about how important DERA 
funding is for school districts across the Country that want to 
purchase more environmentally friendly buses to provide cleaner 
air for our children and our communities?
    Mr. Krapf. I think one of the main things here is that the 
DERA funding is really just a drop in the bucket to the amount 
of money spent for new school buses each year. My company alone 
spends about $20 million a year for new school buses. But part 
of my professional mantra has been ``lead by example,'' and I 
think when the Federal Government and the State governments 
have DERA funds available to get to the school districts, and 
as well to the private operators, that it sets an example. We 
get a lot of press in the industry about the DERA funding and I 
think it sets a tone for other people to follow that.
    As we said earlier in my testimony, school buses are 
already a form of pollution prevention by taking many cars off 
the road, 36 cars for each trip, so school buses, I think, 
really can be a poster child for the DERA funds.
    Senator Barrasso. Dr. Johnson, I said in my opening 
comments that the DERA program was first created as a program 
to target localized air emissions, but what we now know is that 
it has reduced greenhouse gases as well. Clean diesel 
technologies effectively reduce carbon dioxide and black 
carbon.
    Do you agree that DERA is an important policy tool to 
address climate change and, if reauthorized, it will actually 
continue to reduce emissions over the next 5 years?
    Mr. Johnson. Yes, it is a good first step. The in-use 
engines are emitting on the order of 20 times more black carbon 
than modern diesel engines today and, as you mentioned, black 
carbon is one of the most potent greenhouse gases. So, yes, it 
is a good first step to cleaning up these emissions.
    Senator Barrasso. A question for all of you. Dr. Johnson's 
final statement in his prepared remarks talk about the U.S. and 
innovation, private innovation. The United States is a world 
leader in innovation. The DERA program not only protects the 
environment, I think it also helps drive economic activity, to 
your point.
    Can each of you outline perhaps the ways that clean diesel 
projects are of benefit to the economy and, in particular, to 
American manufacture?
    I don't know if you want to start with you, Mr. Johnson. We 
can go that way.
    Mr. Johnson. Yes, sure. Thank you very much for the 
question. All of the emission control or emissions initiatives 
have been started in the United States. The United States is 
the leader in doing this so, therefore, the technologies 
initially developed to meet the U.S. requirements. And as the 
other nations of the world follow suit, that gives the American 
companies, the American technology the advantage to address the 
needs of those other markets as well.
    On the flip side, the tight regulations here in the United 
States also present a, for lack of a better term, a barrier to 
foreign companies from coming into the United States and 
selling vehicles that won't meet the regulations. We don't see 
any Chinese cars here in the United States yet because our 
emission control and safety requirements are prohibitive, and 
Indian companies have attempted to come into the United States 
and have not been able to meet these requirements.
    Finally, to illustrate the point, in China they are now 
implementing diesel particulate filters on their heavy-duty 
trucks, and the bulk of that business is going to American 
companies.
    Senator Barrasso. Mr. Nagle.
    Mr. Nagle. Yes. Certainly, with over 90 percent of the 
goods movement through our Country being handled by equipment 
that utilizes diesel power, it certainly benefits not only the 
health benefits, but also our economy. As Mr. Johnson has 
indicated, the U.S. is a leader in this clean diesel technology 
and 13 States, including Indiana, New York, Maryland, Iowa, 
Mississippi, and Alabama, all manufacture heavy-duty clean 
diesel engines. This provides good paying American jobs, boosts 
our economy, and also, importantly, as Mr. Johnson indicated, 
that technology is highly valued by the rest of the world, so 
it results in increased U.S. exports, which certainly helps our 
trade situations as well.
    It also stimulates small businesses. As an example, in and 
around ports, with the clean truck programs, the partnerships 
with the independent owner-operators not only provides them 
benefit, provides health benefits, but also helps them with 
their move toward fuel efficiency.
    Senator Barrasso. Mr. Krapf, any thoughts?
    Mr. Krapf. Yes, I will speak specifically to the school bus 
industry, because I think the other gentlemen have answered the 
other questions. In my testimony, I specifically said that the 
school bus industry is an American industry. It started in this 
Country and it still is predominantly located only in this 
Country.
    All school buses that are made are made in the United 
States. We already export many, many school buses to other 
countries. They use them particularly in South America and 
Central America for commercial vehicles because of the cost 
versus a large commercial transit bus.
    But now there are several countries that are looking into 
the U.S. model of school buses, getting their students to and 
from school as they have entered a phase where they have gotten 
out of the little hamlets to a suburbia type country. 
Particularly Australia and New Zealand are looking at school 
buses and, as I said, now they are all produced in the United 
States.
    Senator Inhofe's State of Oklahoma has the largest producer 
of school buses with the international plant in Tulsa.
    Senator Barrasso. Senator Carper.
    Senator Carper. Again, our thanks to each of you for 
joining us today and also in the past in some cases.
    A followup question if I could, Mr. Johnson. Do you agree 
that Federal action to reduce emissions, both financial 
incentives like DERA and regulation sections such as heavy-duty 
vehicle emission standards, are instrumental in driving 
American clean energy investments and innovation?
    Mr. Johnson. Yes, indeed.
    Senator Carper. Let me just say in particular. Let me 
modify that a little bit. In particular, do you believe we 
would have the clean diesel technology that we have developed 
here today without strong emission standards as well, and has 
this carrot and stick approach been beneficial to American 
companies and commerce?
    Mr. Johnson. The diesel particulate filter is the most 
effective diesel emission control technology available, and 
this was developed in the United States for heavy-duty 
application to meet the 2007 regulation. Those filters have 
expanded into Europe that did a similar regulation as the 
United States, and now into China, and these are all excellent 
examples of how the U.S. regulation incentivized and initiated 
the companies like mine to develop this kind of technology. So, 
yes, I think being on the forefront of good, sound 
environmental regulation is not only good for society, but it 
is good for private industry as well.
    Senator Carper. Thank you.
    To my colleagues, I would just say I remember when Lamar 
Alexander and I were working on mercury reductions, emission 
mercury reductions from coal-fired utility plants, maybe six, 
seven, 8 years ago, and we had a panel kind of like, only had 
about four or five folks from the utility industry, and we had 
one fellow who was representing a technology association where 
they developed air emission technology, including for removing 
mercury from emission streams. We had our four or five 
witnesses from a utility said--Lamar and I were focused on 
reducing mercury emissions by 80 percent, eight zero. Lamar 
wanted to go to 90 percent reduction.
    Anyway, in the panel we had that day, the folks from 
utility companies said, you know, we just don't think we can 
get to 80 percent; that is just like a bridge too far. The 
fellow from the trade association in the technology camp said, 
no, we cannot only get to 80, we can get to 90; and within 
literally a few years we were at 90 percent.
    To your point, Mr. Johnson, what we did with that 
technology, we just didn't use it in this Country, we sold it 
around the world. We sold it around the world. And to the 
extent we can create great jobs with that technology here and 
sell it around the world, that is the holy grail as far as I am 
concerned.
    There is an old saying, at least for me, I have said this a 
million times, if things are worth having, they are worth 
paying for. Think about that. If things are worth having, they 
are worth paying for. If you look at the budget that we 
received from the Administration this past Monday, it actually 
dramatically cuts funding, and in some cases eliminates 
funding, for research and development, assistance to States and 
grant programs like the Diesel Emission Reduction Act, and that 
is a fraction of the funding compared with the $87 million that 
Congress appropriated for DERA in the Fiscal Year 2019 omnibus.
    If implemented, the President's budget would take our 
Country, I think, in the wrong direction with respect to our 
clean air and climate goals.
    My question of really the entire panel is, based on your 
experience, is the Administration's funding level for DERA too 
low for such a successful program? Your thoughts, please.
    Mr. Krapf.
    Mr. Krapf. Was your question is the funding level too low?
    Senator Carper. Yes, for DERA. Is it too low?
    Mr. Krapf. Yes, I think it is.
    Senator Carper. He would take it down from 87 million down 
to about 10 in that budget. What do you think?
    Mr. Krapf. Yes, I think it definitely is too low, and I 
don't think that in all the years that we have had the DERA 
funding, the amount that was requested versus the amount that 
was finally authorized was probably I think we have gotten two-
thirds of what we have actually asked for over the years, so I 
do think it is too low. And the program, after it was 
originally introduced in 2005, I think it was two or 3 years 
until it really got started, so we missed a few years there at 
the beginning, so, absolutely, we could use more. There are 
many, particularly district-owned fleets, in the United States 
that have buses in the fleets that are 25 and 30 years old.
    Senator Carper. I believe one of our witnesses said, Mr. 
Chairman and to my colleagues, that for every dollar we have 
available through DERA to go out to grants or rebates, it is 
like a $35 request from across the Country to reduce emissions.
    Mr. Nagle, is $10 million in the Administration's request 
too much, too little?
    Mr. Nagle. Definitely too little. We certainly fully 
support at least the $87 million that had been provided for 
this current year. We believe that the fully authorized level 
is more approaching what had been a 100 million level 
previously certainly at least what should be provided. As you 
said, it can leverage a lot of local public investment, but 
also private investment. Again, in and around marine terminals, 
a lot of that investment is with private partners, so we think 
it should be at least at the 87, toward the $100 million level.
    Senator Carper. And very briefly, Mr. Johnson, your 
thoughts. Too much, too little, the Administration's proposal?
    Mr. Johnson. Well, it is a good investment and good public 
policy. I would love to find an investment where I could put $1 
in and get up to $21 out, and that is probably over a 15 or 20 
year accounting, but still it is a fantastic investment.
    The other thing to keep in mind, aside from the leverage of 
private moneys and State moneys three to one for every Federal 
dollar invested is that the program is oversubscribed. We have 
more fleet owners that want to clean up their emissions, but 
the money is not available to do this. Keep in mind that they 
are operating a legal engine, and there is no other way to get 
them motivated to clean up their engines aside from incentives 
and help with investment.
    Senator Carper. OK.
    Mr. Johnson. So, yes, it is underfunded, significantly.
    Senator Carper. Thank you so much.
    Thanks, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe. Come on, you guys. You know, it just amazes 
me. I don't think in the years that I have been here I have 
ever been before a panel where the question was asked wouldn't 
you like to have a little more money, and the answerer says no.
    [Laughter.]
    Senator Inhofe. Anyway, don't get your hopes up on that.
    [Laughter.]
    Senator Inhofe. You know, I chair a little committee called 
the Armed Services Committee, and during the 8 years of Obama, 
taking the last 5 years, we went down using constant dollars, 
2018 dollars, from, in 2010, $796 million down to $583 million. 
Anyway, that was a drop of $200 billion during that period of 
time. It had never happened before. There has never been a 
bureaucracy before in a 5-year period that has dropped by 20 
percent.
    Now we find that China and Russia both have passed us up in 
areas such as hypersonics and artillery and other areas where 
we have never been behind before, and now we are going to--that 
is what we are fighting for right now, is to try to get back 
where we have been since World War II, and that is a leader in 
the free world in terms of funding for our military, so that is 
your competition out there.
    I think every question I had has already been answered. I 
would like to say something about Navistar, Mr. Krapf, because 
I can't imagine there is any larger manufacturer of school 
buses anywhere in the world than Navistar, but I understand we 
are No. 3 or No. 4, so it is a huge thing for us. We supply the 
surrounding States. It is a great thing for us.
    I would just ask the question would the schools be able to 
upgrade their fleets without the help of DERA that we have all 
been working on for such a long time now?
    Mr. Krapf. I am not sure that I understand the question.
    Senator Inhofe. Well, I am just saying that without this 
program would we be able to upgrade our fleets?
    Mr. Krapf. Well, I think that----
    Senator Inhofe. Well, I think the answer is yes.
    [Laughter.]
    Senator Inhofe. That made that a lot easier.
    Then, Mr. Nagle, the ports do have a variety of projects 
that benefit from DERA. I think that is the one thing that 
hasn't been addressed during the course of this time. What 
other projects receive the benefit from DERA on our ports?
    Mr. Nagle. Yes, sir, it is really a variety of both cargo 
handling equipment in terms of at the facilities themselves, 
whether it is rubber-tired-gantry cranes, various yard 
equipment, but also, importantly, the marine vessels, whether 
it is tug boats, other assist vessels in and around the harbor, 
because those can have engines that last anywhere from 30 up to 
50 years.
    A recent study has indicated can last up to 50 years, so 
programs like DERA can advance significantly moving toward the 
more efficient engines. Same with locomotives, the switcher 
locomotives moving the cargo in and out of ports. Those have 
life spans from 40 up to even 70 years, so programs like DERA 
can have very significant impacts in replacing those really 
long-standing, older equipment.
    Senator Inhofe. And I don't think a lot of people are aware 
of that.
    Dr. Johnson, you talk about where our leadership is. You 
mentioned China twice. Is there anything further you would like 
to say that you haven't had a chance to say concerning what our 
posture is relative to some of our competitors out there?
    Mr. Johnson. Well, I think I have covered it quite well.
    Senator Inhofe. I think you have.
    Mr. Johnson. I would like to mention one emerging trend 
that is happening. I think we have all heard of electric 
vehicles, and China has a mandate on electric vehicles. They 
are looking at requiring 15 to 20 percent of their new car 
sales in 2025 being electric vehicles, and the industry is 
generally acknowledging that China is the center of technology 
development regarding electric vehicles.
    At the Detroit Auto Show last year we saw our first 
exhibition booth from a Chinese auto company, and they have 
expanded their booth this year and they plan on introducing 
electric vehicles into the United States market within a few 
short years, so it is an example of the government initiative 
in China incentivizing or mandating electric vehicles, and I 
think the experts in the transportation industry will 
acknowledge that the electric vehicle has a future in many, 
many different segments of the transportation.
    Senator Inhofe. I would only observe that China is famous 
for having government tell people what they want, and this is 
an extension of that. I also would observe that that has to 
come from, in China, coal powered plants supply electricity, so 
there we have it.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. Just let me followup on that conversion a 
little bit, if I can. You mentioned the Detroit Auto Show. I go 
almost every year, and have for more than 20 years. Delaware 
used to produce more cars, trucks, vans per capita than any 
State, and we lost both of our Chrysler plants and our GM 
plants about 10 years at the bottom of the great recession, and 
we are repurposing the Chrysler plant to be a science 
technology and research center for the University of Delaware. 
It is so exciting to see it come up out of the ground. We mourn 
the loss of our Chrysler and GM plant, but it is wonderful to 
see thousands of new jobs being created.
    When I used to go to the Detroit Auto Show, I remember 11 
years ago the car of the year at the Detroit Auto Show was the 
Chevrolet Volt, a hybrid. The first 38 miles it went on 
electric charge; after that it was on gasoline. That was 11 
years ago. A year ago, at the Detroit Auto Show, the car of the 
year was the Bolt, Chevrolet Volt, and all electric, 140 miles 
on a charge; 140 miles, up from 38. I was at the Detroit Auto 
Show 2 months ago. and I suspect you were as well, and I saw a 
dozen or more vehicles from U.S. manufacturers and from foreign 
manufacturers that get 250 miles on a charge and more.
    The Chairman and I and our colleagues are beginning to work 
on transportation reauthorization legislation that we hope to 
be able to maybe introduce in the middle of this year, the 
middle of summer, and part of the infrastructure I think needs 
to include charging stations and hydrogen fueling stations.
    For those in the room who have never driven electric-
powered vehicles or hydrogen-powered vehicles, they are fun. 
Incredible torque, just a lot of tun to drive. The hydrogen 
fuel cell vehicles, they produce as their only emission water 
so clean you can drink it.
    To Jim Inhofe's point about China, they are burning coal to 
produce electricity for electric-powered vehicles, so they have 
some work still to do, but we are going to be driving vehicles 
that consume gasoline and diesel for a long time. My Chrysler 
Town & Country minivan I bought 18 years ago, the year I 
stepped down as Governor and came here, so it is a 2001. I was 
driving home from the train station in Delaware last week, Mr. 
Chairman, and I looked at my odometer in my Chrysler minivan 
and it went 499,999 miles to 500,000 miles on my way home, so I 
have had 18 years. Not many people drive a vehicle for 500,000 
miles, but it gets about 25 miles per gallon, which is not 
great, but it is better than some, I suppose.
    But vehicles like that are going to be on the road for a 
while, for quite a while, actually, so we are still going to 
use gasoline and diesel into the future, but it would be smart 
to make the transition to the other as well.
    I have a question on glider trucks I would like to ask and 
then I am done. EPA currently is taking action to undo the 
clean diesel progress we have made and you mentioned in your 
testimony, Mr. Johnson. For example, EPA has proposed to exempt 
heavy-duty glider trucks from the Clean Air Act. Glider trucks 
are known by several names, including zombie trucks. They have 
new shells on the outside, but on the inside they have the old 
high polluting diesel engines that lack modern pollution 
controls.
    EPA's own research indicates that a 2017 glider truck can 
emit up to 43 times more nitrogen oxide than a model year 2014 
or 2015 truck. Let me say that again. EPA's own research 
indicates that a 2017 glider truck with the old diesel engine 
can emit up to 43 times more nitrogen oxide than a model year 
2014 or 2015 truck. Our current EPA administrator has signed a 
proposal to completely exempt these what I think are dangerous 
trucks from emission standards and he said that he may finalize 
this rule.
    My question, Mr. Johnson, is if EPA decides to go forward 
with this glider truck rule, would allowing for the sale of 
thousands more heavy polluting diesel trucks undermine the 
progress we have made to reduce emissions through DERA? How 
would it affect the clean diesel industry as a whole?
    Mr. Johnson. The exclusion of glider trucks from regulation 
is essentially taking advantage of an unintended loophole in 
the regulation. The EPA regulations require that when an engine 
is rebuilt, it needs to be rebuilt to the original emission 
standards under which that engine was manufactured, which is a 
reasonable requirement. So, in the case of the glider truck, 
they are taking engines or the block of the engine that in many 
cases is taken out of service, is no longer suitable for 
revenue service, finding these engines, rebuilding them, and 
then putting them on a new truck chassis, which is completely 
contrary to the purpose of the regulation.
    Imagine two trucks pulling up to a stoplight. Both of them 
look brand new and one truck has a rebuilt engine from 1995, 
1997, 1998 with obsolete or no emission control equipment on 
it, polluting 40 times more than the new truck that looks 
identical to it pulled up to that stoplight. What does the 
fleet owner of that new truck think when they invested and paid 
for emission control equipment that this truck next to him does 
not have, and polluting the equivalent of 40 of the trucks that 
are clean?
    Keep in mind that as we move forward with the EPA in 
California low NOx initiatives, that one glider truck will no 
longer be polluting equal to 40 trucks, the pollution will 
equal hundreds of trucks. So it is just entirely inappropriate 
and not fair to not close that loophole and prohibit the use of 
glider trucks.
    Senator Carper. Thank you for that response.
    Mr. Chairman, thank you for pulling this together. This is 
a joy for a lot of us. I think the rest of the Congress could 
do well to look at the way we operate here, Mr. Chairman. We 
try to work across the aisle and find common ground. We are 
always looking for ways to improve the quality of air, our 
water, better public health, and create jobs, and this is a 
great example of that. If George Voinovich is looking down at 
us today from on high, we will just say, George, you done well. 
God bless you. Thank you.
    Senator Barrasso. Well, thank you, Senator Carper, for your 
ongoing leadership for this over the decades, it has been 
remarkable. There is so much support for this legislation.
    I ask unanimous consent to enter letters that we received 
from the DERA Coalition and the Diesel Technology Forum. These 
groups strongly support reauthorization of the program.
    Without objection, that will be introduced.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. I want to thank our panel for being here, 
each of the witnesses. Thank you for your testimony.
    We are now going to hold the record open in case some of 
the other members have questions, written questions. We will 
submit those to you and we would ask that you get those 
responses back to us. The record will remain open for 2 weeks.
    Thanks so much for being with us.
    This hearing is adjourned.
    [Whereupon, at 11:11 a.m. the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
